BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Alan
Brownstein, Melissa Rogers, and Rabbi David
Saperstein as Amici Curiae in Support of Respondents
in 19-123, Sharonell Fulton, et al. v. City of
Philadelphia, Pennsylvania, et al., were sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day Service and e-mail to the
following parties listed below, this 19th day of August,
2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave. , NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becket law.org
Counsel for Petitioners
Leslie Cooper
American Civil Liberties Union
125 Broad Street
New York, NY 10004
(212) 519-7815
lcooper@aclu.org
Counsel for Intervenor Support Center for Child
Advocates and Philadelphia Family Pride

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington , DC 20005

Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
(202) 637-5528
neal.katyal@hoganlovells.com

Counsel for Respondents City of Philadelphia,
Department of Human Services for the City of
Philadelphia, Philadelphia Commission on Human
Relations
Carmine D. Boccuzzi, Jr.
Counsel of Record
Samuel Levander
Jina Davidovich
Cleary Gottlieb Steen & Hamilton LLP
One Liberty Plaza
New York, New York 10006
(212) 225-2000
(212) 225-3999
cboccuzzi@cgsh.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 19, 2020.

Donna J. WoJ~
fl)
Becker Galla~ er LegiC' Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~

cJzrii, J2, ~

Notary Publi~
[seal]

/ 11. ck>d6

